App. 1
ADDENDUM
This map shows where the NBC is located in relation to the United States-Mexico Border, in addition to where it is located in
relation to existing border barriers and the proposed Border Wall. The map was created by K. Clauser for the Center of Biological
Diversity on April 22, 2019 and can be found in North American Butterfly Association & National Butterfly Center, We Must Battle the
Border Wall: How Trump’s Barrier Threatens the Wild Creatures & Features of the Rio Grande Valley of Texas (July 2019).

